Office of Audits
Office of Inspector General
U.S. General Services Administration




Limited Scope Audit of Task
Order NP4700101050 Funded
by the American Recovery and
Reinvestment Act of 2009
Report Number A110024/Q/A/P12006
May 2, 2012
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                    REPORT ABSTRACT
                             Limited Scope Audit of Task Order NP4700101050 Funded by the
                             American Recovery and Reinvestment Act of 2009
OBJECTIVES                   Report Number A110024/Q/A/P12006
 The objective of our        May 2, 2012
 audit was to determine if   WHAT WE FOUND
 the National Capital        We identified the following during our audit:
 Region Client Support
 Center awarded and          Finding 1 – The improper obligation of funds resulted in violations of
 administered Task           the bona fide needs rule and the Antideficiency Act (ADA).
 Order NP4700101050 in       Finding 2 – Discrepancies in the task order file documentation affected
 accordance with federal     the integrity of task order actions.
 regulations.                Finding 3 – Accepting funds near the end of the fiscal year resulted in
                             an inadequate amount of time to solicit competition and award the task
                             order.
                             Finding 4 – Relying on a poorly developed Independent Government
                             Cost Estimate compromised the price reasonableness determination.
                             Finding 5 – Sharing information with the contractor put the Government
                             at a disadvantage for receiving the best price.
                             WHAT WE RECOMMEND
                             We recommend that the Regional Commissioner of the National
                             Capital Region Federal Acquisition Service:
                             Determine whether you agree there is a reportable ADA violation.
                              a. If you agree there is a reportable ADA violation, coordinate with
                                 Regional Counsel and the General Services Administration’s Office
                                 of General Counsel to take appropriate action for reporting the ADA
                                 violation.
                              b. If you disagree there is a reportable ADA violation, request an
                                 opinion from the Department of Justice’s Office of Legal Counsel
Acquisition Programs
                                 on whether the actions outlined in this report constituted an ADA
Audit Office (JA-A)
                                 violation.
241 18th Street South,
Suite 607                    MANAGEMENT COMMENTS
Arlington, VA 22202          National Capital Region management disagreed with the majority of
(703) 603-0189               our findings. A summary of management’s comments are included in
                             the body of the report, followed by the Office of Inspector General’s
                             response. See Appendix B for management’s full response.


                                                  i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             5/2/2012
 TO:               Alfonso J. Finley
                   Regional Commissioner, Federal Acquisition Service
                   National Capital Region (WQ)

 FROM:             Lindsay S. Mough
                   Audit Manager
                   Acquisition Programs Audit Office (JA-A)
 SUBJECT:          Limited Scope Audit of Task Order NP4700101050 Funded by the
                   American Recovery and Reinvestment Act of 2009
                   A110024/Q/A/P12006

This report presents the results of our audit of Task Order NP4700101050 Funded by
the American Recovery and Reinvestment Act of 2009. Our findings and
recommendations are summarized in the Report Abstract. Instructions regarding the
audit resolution process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Lindsay Mough       Audit Manager        lindsay.mough@gsaig.gov (703) 603-0269
 Jacqueline Ogle     Auditor-In-Charge    jacqueline.ogle@gsaig.gov (703) 603-0220

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




                                            ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – The improper obligation of funds resulted in violations of the bona fide
            needs rule and the Antideficiency Act...................................................... 2
                 Recommendation 1 ................................................................................. 5
Finding 2 – Discrepancies in the task order file documentation affected the integrity
            of task order actions ................................................................................ 5
Finding 3 – Accepting funds near the end of the fiscal year resulted in an inadequate
            amount of time to solicit competition and award the task order ............... 7
Finding 4 – Relying on a poorly developed Independent Government Cost Estimate
            compromised the price reasonableness determination ........................... 8
Finding 5 – Sharing information with the contractor put the Government at a
            disadvantage for receiving the best price ................................................ 9


Conclusion.............................................................................................................. 10

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ...................................................................... C-1




                                                               iii
Introduction
The American Recovery and Reinvestment Act (Recovery Act) of 2009 was enacted to
create new jobs, spur economic activity, and foster accountability and transparency in
government spending. To help achieve these goals, the Recovery Act made $275 billion
available for federal contracts, grants, and loans.

With the enactment of the Recovery Act, the Federal Acquisition Service (FAS)
experienced an increase in business volume as other federal agencies came to the
Office of Assisted Acquisition Services Client Support Centers (CSC) for acquisition
support. 1

In an effort to support the Recovery Act’s commitment to accountability, the Office of
Inspector General (OIG) for the General Services Administration (GSA) provides
oversight of Recovery Act funds by monitoring task orders managed by the Office of
Assisted Acquisition Services. As part of this oversight, we identified that the National
Capital Region CSC awarded Task Order NP4700101050 at the end of fiscal year (FY)
2010 for $4,969,916. The purpose of the task order was to establish a Project
Management Office to support the information technology (IT) infrastructure task order
during the consolidation of the Department of Homeland Security’s (DHS) headquarters.
The base year of the task order was funded by two-year Recovery Act funds in the
amount of $1,471,698.50 that expired at the end of FY 2010; as such, we initiated a
review to ensure that the funds were obligated properly.

The objective of our audit was to determine if the National Capital Region CSC awarded
and administered Task Order NP4700101050 in accordance with federal regulations.

See Appendix A – Purpose, Scope, and Methodology for additional details.




1
  The Office of Assisted Acquisition Services provides federal agencies with assisted acquisition solutions
through regional CSCs. The CSCs interface with agencies to define requirements and prepare and
manage task and delivery orders.


                                                     1
Results
During our audit, we identified a number of issues that we believe warrant the attention
of FAS in the National Capital Region.

Finding 1 – The improper obligation of funds resulted in violations of the bona
fide needs rule and the Antideficiency Act.

The National Capital Region CSC awarded a severable 2 services task order with a
period of performance exceeding one year and extending past the period of availability
of the two-year Recovery Act funds. This contract action violated the bona fide needs
rule of fiscal law 3 and, accordingly, the Antideficiency Act (ADA). 4

The bona fide needs rule states that an annual appropriation may only be obligated to
meet a legitimate, or bona fide, need arising during the period of availability of the
appropriation and precludes contracts from crossing fiscal year lines. As an exception,
41 U.S.C. 3902(a) authorizes contracts for severable services to begin in one fiscal year
and end in the next, as long as the contracts do not exceed one year. The bona fide
needs rule also applies to multiple-year appropriations, which are subject to the same
principles applicable to annual appropriations. Applying these principles, the period of
performance of a severable services contract can exceed one year only if the period of
performance is within the period of availability of the multiple-year appropriation.

The ADA prohibits government agencies from involving the Government in a contract or
obligation before an appropriation is made. If it is determined that there is a violation of
the ADA, the agency head shall report immediately to the President and Congress all
relevant facts and a statement of actions taken.

The National Capital Region CSC awarded a severable services task order beginning in
FY 2010 and ending in FY 2012. 5 This violated the bona fide needs rule as the period of
performance exceeds one year and extends past the period of availability for the
Recovery Act funds. Accordingly, the National Capital Region CSC violated the ADA by
making an obligation after the availability of the Recovery Act funds and in advance of
any FY 2012 appropriations.

We notified the National Capital Region CSC of the ADA violation and they stated that
the intended base-year period of performance for the task order was September 30,
2010, through September 29, 2011, or one year. The task order was subsequently
modified to limit the period of performance to 12 months. However, the task order
documentation was insufficient, making it difficult for us to determine the actual base-
year period of performance (see Finding 2). Regardless, the U.S. Government
2
  Severable services are continuing and recurring in nature, and value is received at the time the service
is rendered.
3
  Title 31 U.S.C. Section 1502(a)
4
  Title 31 U.S.C. Section 1341 et seq.
5
  The period of performance was from September 29, 2010, to November 28, 2011.


                                                     2
Accountability Office’s Principles of Federal Appropriations Law states “factors such as
mistake, inadvertence, lack of intent, or the minor nature of a violation do not affect the
duty to report [an Antideficiency Act violation].” Therefore, we determined that a
reportable ADA violation occurred.

Violating the bona fide needs rule and the ADA affects the integrity of acquisition
support provided by the National Capital Region CSC. This could potentially diminish
customer agency confidence and negatively affect the CSC’s business. It is essential
that the National Capital Region CSC review its internal processes to ensure that similar
instances do not occur.

Management Comments

National Capital Region management believes that the funding authority for the task
order in question was the Acquisition Services Fund, a no-year revolving fund.
Therefore, they contend that neither the bona fide needs statute nor the ADA was
violated. Management submits that even if the bona fide needs statute or 41 U.S.C.
390[2] had been violated, modifying the task order to reduce the period of performance
to 12 months cured those violations, and an ADA violation did not occur. See
Appendix B for management’s full response.

OIG Response

We disagree with FAS’s assertion that the funds were no-year funds because the
Acquisition Services Fund was used to fund the task order.

The crux of FAS’s response is that these obligations were made against the Acquisition
Services Fund, a no-year revolving fund, so the bona fide needs test does not apply.
However, money put in a revolving fund retains the same purpose and time limitations
as the original appropriation. Specifically, except as provided by law, an amount
authorized to be withdrawn and credited to a revolving fund is available for the same
purpose and subject to the same limitations provided by the law appropriating that
amount, regardless of whether the appropriated funds are transferred in before or after
the services are performed. See Matter of: Implementation of the Library of Congress
FEDLINK Revolving Fund, B-288142 (September 6, 2001).

Moreover, GSA and DHS clearly intended to apply the purpose and time limitations
applicable to the DHS funds to the acquisition by GSA. Both DHS and GSA stated the
bona fide needs test applied to the multiple-year Recovery Act appropriated funds used
to fund these services in the Reimbursable Work Authorization and the Inter Agency
Agreement.

Accordingly, the Recovery Act funds could not be obligated in FY 2012 and National
Capital Region CSC’s action in extending the period of performance into FY 2012 was
improper.




                                            3
To find an ADA violation, we have to conclude that there were no available funds for the
FY 2012 obligation. FAS states it could have used the Acquisition Services Fund to pay
the FY 2012 obligation and then sought reimbursement from DHS. We do not have any
legal authority that clearly disputes this assertion. The statute that authorizes the
Acquisition Services Fund, 40 U.S.C. § 321, states that if payment is not made in
advance, then the Administrator “shall be reimbursed promptly out of amounts of the
requisitioning agency in accordance with accounting procedures approved by the
Comptroller General.” This statute presumes that the requisitioning agency will have the
funds to reimburse FAS. However, DHS may, or may not, receive appropriations
adequate to pay that obligation. Further, we do not believe that FAS’s interpretation of
40 U.S.C. § 321 is consistent with the intent of the ADA. See e.g., letter from Secretary
of Health and Human Services reporting ADA violations (July 14, 2011),
http://www.gao.gov/ada/GAO-ADA-11-23.pdf. In that letter, one type of violation
reported by the Secretary was “forward funding,” which is similar to the situation here.
The Secretary described the problem as follows.

      As a general rule, severable services are the bona fide need of the fiscal year in which
      they are performed. For obligation purposes, except in accordance with express
      statutory authority, severable services are charged to the appropriation available at the
      time the services are performed. Thus, in a contract for severable services, base and
      option periods are funded out of the appropriation available at the time of contract award
      or option exercise. However, such funds are available for up to twelve months, in
      accordance with the statutory exception at 41 U.S.C. § 3902, which permits agencies to
      obligate funds current at the time of contract award to fund a severable services contract
      and cross fiscal years, provided the performance period does not exceed one year.

      The contracts referenced on the attachment as "forward funded" all suffered from the
      same defects. That is, agencies obligated annual appropriations to cover performance in
      excess of twelve months and additionally in some instances, to use current year
      appropriations to fund contract performance that would not begin until a subsequent
      fiscal year. As noted, these types of "forward funding" are problematic, as annual funds
      obligated on a contract for severable services are only available for twelve months after
      obligation (i.e., after contract award or option exercise). Thus, on these contracts, annual
      funds were used not only to fund the bona fide need for the year in which the obligation
      was made, but also to fund the bona fide need of future fiscal years. As a result,
      agencies obligated the government to acquire severable services for future fiscal years
      in which no appropriation had yet been made, and thus obligated funds in advance of
      appropriations which could be used for such services. In addition, agencies also
      obligated funds to acquire severable services in an amount that exceeded and could be
      charged to the annual appropriation in question.

We question whether FAS can, consistent with the ADA, use the Acquisition Services
Fund to fund severable services contracts where it expects to be reimbursed but does
not have assurance that the requisitioning agency will receive appropriated funds in the
future to reimburse FAS. We believe that FAS may rely on reimbursement only when
there is assurance that the requisitioning agency will have the money available. We do
not believe that was the case here.




                                               4
We also disagree with FAS’s discussion of curing an ADA violation and do not believe
an ADA violation could be cured in the fashion FAS describes. Two of the three cases
cited by FAS support FAS’s position that a “cured” violation need not be reported.
However, neither case is applicable to the current situation. No accounts were adjusted
here—instead, a period of performance was adjusted. This was not a violation of the
“Purpose” provisions of appropriations law—this was a violation of the “Time”
provisions. In the original task order, where there is no appropriation available to cover
the FY 2012 services, there is no account to adjust. Therefore, this situation cannot be
cured and must be reported. See Department of the Army—Escrow Accounts and the
Miscellaneous Receipts Statute, B-321387 (March 30, 2011) (the Army incurred
violations in certain contracts in 2006, but in 2009 cured the violations by amending the
indemnification clauses in those contracts. GAO held that even though the Army
corrected the violations, it still had to file an ADA report); see also DOD Use of
Operations and Maintenance Appropriations in Honduras, B-213137 (June 22, 1984)
(the Army could not cure ADA funding violations with respect to obligations incurred in a
previous fiscal year unless funds available from that previous fiscal year were available
for adjustment).

We are unaware of a case specifically on point with the issue here, where FAS asserts
that it could use funds from the Acquisition Services Fund (as opposed to the no-year
revolving fund discussed in B-288142) and seek reimbursement (as opposed to
advance payments discussed in B-288142) from DHS. Given our concerns with FAS’s
arguments that this was not an ADA violation, we recommend FAS request an opinion
on whether this constituted an ADA violation from the Department of Justice’s Office of
Legal Counsel to resolve this issue.

Recommendation 1

We recommend that the Regional Commissioner of the National Capital Region Federal
Acquisition Service:

Determine whether you agree there is a reportable ADA violation.
      a. If you agree there is a reportable ADA violation, coordinate with Regional
         Counsel and GSA’s Office of General Counsel to take appropriate action for
         reporting the ADA violation.
      b. If you disagree there is a reportable ADA violation, request an opinion from
         the Department of Justice’s Office of Legal Counsel on whether the actions
         outlined in this report constituted an ADA violation.

Finding 2 – Discrepancies in the task order file documentation affected the
integrity of task order actions.

The task order file contained discrepancies, making it difficult for the contracting officer
to fully support all contracting actions taken. In accordance with Federal Acquisition
Regulation 4.801, the file documentation shall include all contractual actions and be
sufficient to constitute a complete history of all transactions.



                                             5
Discrepancies in the task order file documentation (see Figure 1) made it difficult for us
to determine the intended base-year period of performance. Despite these
discrepancies, we were able to identify one specific change to the solicitation that
indicated the intended period of performance was 14 months. Specifically, in response
to a potential contractor requesting clarification of the period of performance, 6 the
National Capital Region CSC amended the solicitation to clarify the period of
performance as September 29, 2010, to November 28, 2011. This clarification indicates
that the intended period of performance was in fact 14 months.

    Figure 1 – Documentation Discrepancies Regarding the Base-Year Period of Performance 7




The contracting officer’s poor documentation of the period of performance negatively
affected the integrity of the entire task order and contributed to a reportable ADA
violation (see Finding 1). The contracting officer should ensure all actions are clearly
and fully documented.

Management Comments

Although National Capital Region management agrees that there were discrepancies in
the task order file documentation related to the period of performance, they believe
there is sufficient documentation indicating that the correct period of performance was
intended to be 12 months. See Appendix B for management’s full response.

OIG Response

In their response, management states that the information reflected in the award
document supersedes the information provided in response to the solicitation question.
While we agree the award document supersedes the solicitation, as depicted in
Figure 1, there are also discrepancies within the award document. Therefore, we

6
  The solicitation stated two different base-year periods of performance - September 29, 2010, to
September 28, 2011, and September 29, 2010, to November 28, 2011.
7
  Figure 1 excludes contracting actions taken after the start of this audit.


                                                    6
maintain that there is not sufficient evidence that the intended period of performance
was 12 months.

Finding 3 – Accepting funds near the end of the fiscal year resulted in an
inadequate amount of time to solicit competition and award the task order.

The National Capital Region CSC did not have adequate time to solicit competition and
award the task order because it accepted the Recovery Act funds near the end of the
fiscal year. Acquisition Letter V-09-06 states that the decision to accept funds near the
end of the fiscal year should take into consideration the minimum time required to
contractually obligate the funds properly.

The Recovery Act funds used for this task order needed to be obligated by the end of
FY 2010. Despite this requirement, the National Capital Region CSC accepted the
funds on September 20, 2010, allowing the CSC only nine business days for the entire
award process. As a result of these strict timeframes, the solicitation period was limited
to four days. This hindered competition, resulting in the CSC receiving only one
proposal. When accepting the funds, the National Capital Region CSC should have fully
considered the minimum time interested contractors would need to prepare and submit
proposals in response to the solicitation.

The short acquisition lead time restricted competition for this task order, which may
have resulted in the Government paying more than it should have and not receiving the
best value. In order to promote adequate competition, the National Capital Region CSC
should only accept funds when it has a reasonable amount of time to solicit competition
and award the task order.

Management Comments

National Capital Region management disagrees that there was an inadequate amount
of time to solicit competition and award the task order. See Appendix B for
management’s full response.

OIG Response

In their response, management states that the task order’s services were not
considered complex, the scope was limited, and the dollar value of the procurement
was not considered substantial. However, we disagree with this assertion as the task
order was awarded to support the $2.6 billion IT infrastructure task order for the
Department of Homeland Security’s headquarters consolidation. In addition, given that
only one proposal was received, we maintain that more time was necessary for
interested contractors to prepare and submit proposals in response to the solicitation.




                                            7
Finding 4 – Relying on a poorly developed Independent Government Cost
Estimate compromised the price reasonableness determination.

The contracting officer used an inadequate Independent Government Cost Estimate
(IGCE) to evaluate pricing, thereby compromising the price reasonableness
determination. The price analysis is particularly important given that there was no
competition. 8

An IGCE should reasonably represent the amount the Government expects to pay for
the proposed effort. As such, the IGCE should be developed using the labor categories
and hours the Government anticipates will be needed to accomplish the overall task
order requirements.

However, in this case the National Capital Region CSC developed the IGCE using the
most senior level labor rates on Schedule 874 to “back into” the labor hours from the
task order’s total budget. Given that a comparison of the proposal to the IGCE was the
only price analysis technique used, the contracting officer’s price reasonableness
determination cannot be relied upon.

Comparing the proposal price to a poorly developed IGCE affects the integrity of the
task order’s price reasonableness determination. When relying on the IGCE to
determine price reasonableness, the contracting officer should ensure it is developed
based on the specific task order requirements.

Management Comments

National Capital Region management disagrees that the IGCE was poorly developed or
compromised the price reasonableness determination. See Appendix B for
management’s full response.

OIG Response

In their response, management suggests that this IGCE could not be used completely
for comparison purposes. However, the final price negotiation memorandum states that
the IGCE was in fact used to evaluate the proposal. Management also states that the
ordering activity considered the level of effort and mix of labor/skill categories proposed
and made a determination that the total price was reasonable for the effort. However,
there is no indication that other price evaluation techniques outside the IGCE
comparison were used to evaluate the labor mix and level of effort. Therefore, we
maintain that use of the poorly developed IGCE compromised the price reasonableness
determination.




8
 Competition normally establishes price reasonableness and satisfies the requirement to perform a price
analysis through a comparison of proposed prices.


                                                   8
Finding 5 – Sharing information with the contractor put the Government at a
disadvantage for receiving the best price.

The contracting officer provided the contractor with the task order’s not-to-exceed (NTE)
amount to signify the scope of the requirement. As a result, the contractor was given the
opportunity to propose a price slightly below the NTE amount. Sharing this information
should not be necessary as the statement of work should be specific enough to
describe the scope of the task order.

The solicitation contained the task order’s NTE amount. Consequently, the contractor
offered a 2 percent discount off its schedule rates bringing the total proposed price to
0.18 percent below the NTE amount. The National Capital Region CSC stated that
providing the NTE amount is a best practice 9 used to depict the scope of work.
However, by providing the NTE amount to potential contractors, the contracting officer
cannot be assured that the Government is receiving the best price.

Contractor independence provides integrity to the acquisition process and can help
ensure that the Government is receiving fair and reasonable pricing on the task order as
a whole. The National Capital Region CSC should not provide contractors with the NTE
amount as this practice could result in the Government paying a higher price.

Management Comments

Management agrees that the task order total NTE amount should not be included in the
solicitation. See Appendix B for management’s full response.

OIG Response

Although management agrees with this finding, they stated that the individual preparing
the solicitation misunderstood the template instructions for solicitation preparation.
However, the template includes a placeholder to be filled in by GSA for the total NTE
amount for the base period and each option period (see Figure 2). We suggest the
template be modified, as this could create confusion for any individual preparing the
solicitation.

           Figure 2 – Excerpt from National Capital Region CSC Solicitation Template




.




9
 National Capital Regional counsel created a solicitation template to assist acquisition personnel in
preparing solicitations. This template contained a space for the NTE amount.


                                                     9
Conclusion
The National Capital Region CSC did not award and administer Task Order
NP4700101050 in accordance with federal laws and regulations. Specifically, we
identified a violation of both the bona fide needs rule and the ADA. These serious
violations affect the integrity of acquisition support provided by the National Capital
Region CSC. We also found that the task order file documentation was inconsistent,
which contributed to the reportable ADA violation.

In addition, the National Capital Region CSC cannot ensure that the Government
received the best price for this task order because it: (1) hindered competition by
accepting funds late in the fiscal year; (2) relied solely on a flawed IGCE to evaluate
pricing; and (3) shared the task order’s NTE amount with the contractor. Given these
deficiencies, the National Capital Region CSC did not demonstrate the ability to award
and administer task orders properly. We are concerned with management’s comments
regarding the National Capital Region CSC’s contracting practices and internal
processes. As this audit was limited to the review of one task order, we are making no
additional recommendations at this time. However, we will take this area under
consideration during the Office of Inspector General’s annual audit planning process.




                                          10
Appendix A – Purpose, Scope, and Methodology
                                                        Report Number A110024/Q/A/P12006

Purpose

We initiated this limited scope audit as a result of the Office of Inspector General’s
monitoring of Recovery Act task orders managed by the Office of Assisted Acquisition
Services.

Scope

The scope of this audit is limited to the award and administration of task order
NP4700101050.

Methodology

To accomplish our objectives, we:

   •   Analyzed all documentation in the hard copy task order file and in the electronic
       acquisition system;
   •   Reviewed the Federal Acquisition Regulation;
   •   Reviewed U.S. Government Accountability Office policy and internal General
       Services Administration policy;
   •   Examined federal statutes regarding appropriated funds and fiscal law; and
   •   Held discussions with National Capital Region acquisition personnel.

Except as noted below, we conducted the audit between April 2011 and October 2011
in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

As this work was performed under the continuing oversight of all Recovery Act task
orders managed by the Office of Assisted Acquisition Services, internal controls have
not been fully assessed. Only those internal controls discussed in the report have been
assessed.




                                          A-1
Appendix B – Management Comments
                                   Report Number A110024/Q/A/P12006




                        B-1
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-2
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-3
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-4
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-5
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-6
Appendix B – Management Comments (cont.)
                                  Report Number A110024/Q/A/P12006




                          B-7
Appendix C – Report Distribution
                                                         Report Number A110024/Q/A/P12006

Regional Commissioner, Federal Acquisition Service, National Capital Region (WQ)

Regional Administrator, National Capital Region (WA)

Commissioner, Federal Acquisition Service (Q)

Regional Counsel, National Capital Region (WL)

Division Director, GAO/IG Audit Response Division (H1C)

Director, Business Analysis and Audits Division (QB0A)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                           C-1
